Orrick, Herrington & Sutcliffe LLP

1152 15th Street NW
Washington, DC 20005

February 26, 2020
Via Electronic Filing and Hand Delivery
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

+1-202-339-8400
www.orrick.com

Melanie L. Bostwick

E mbostwick@orrick.com
D +1-202-339-8483

United States v. Riley Briones, Jr., No. 19-720

Dear Mr. Harris:
I am counsel of record for Respondent Riley Briones, Jr., in the abovecaptioned matter. Pursuant to Rule 30.4, I am writing to request a 30-day
extension of time to file Respondent’s brief in opposition to certiorari.
The petition for certiorari was docketed on December 6, 2019, after Petitioner
received two 30-day extensions. The deadline for Respondent to oppose the petition,
after two extensions, is March 6, 2020. If the requested extension of time is
granted, Respondent’s brief in opposition would be due on April 6, 2020. Counsel of
record for Petitioner has consented to this request for extension of time.
Respondent respectfully requests this extension for two reasons. First, the
extension is warranted in light of this Court’s dismissal of the petition in Mathena
v. Malvo, 18-217, on February 26, 2020. The petition in the instant case had stated
that certiorari is warranted here because of the possibility that “the Court’s decision
in Malvo may affect the proper resolution of this case.” Pet. at 9. Given Malvo’s
dismissal, we understand that the United States is in the process of reformulating
its position regarding the appropriate disposition of its certiorari petition in this
case. Whether Respondent files a brief in opposition, and the content of any such
brief in opposition, now necessarily depends on the course of action that the United
States elects to undertake in light of the recent dismissal of the certiorari petition in
Malvo.
Second, undersigned counsel of record has had and continues to have
significant pre-existing obligations in other matters during this time, including a
reply brief in Donghee America, Inc. v. Plastic Omnium Advanced Innovation and
Research, No. 19-1627 (Fed. Cir.), due March 3 (extension request pending); a

petition for certiorari in The Chamberlain Group v. Techtronic Industries Co. Ltd.,
Nos. 19-2103 & 19-2228 (Fed. Cir.), due March 16 (extension request pending); a
reply brief in Military Veterans Advocacy v. Secretary of Veterans Affairs, No. 191600 (Fed. Cir.), due March 19; and assisting with preparation for oral argument in
Bio-Rad Laboratories, Inc. v. 10x Genomics, Inc., Nos. 19-2255 & 19-2285 (Fed.
Cir.), scheduled for April 10.
Thank you in advance for your consideration of this matter.
Respectfully submitted,
/s/ Melanie L. Bostwick
Melanie L. Bostwick
cc:

Counsel for Petitioner (via overnight mail and email)

